No. 19-1137
In the

Supreme Court of the United States
__________________
TENNESSEE, BY AND THROUGH THE TENNESSEE
GENERAL ASSEMBLY, ET AL.,
Petitioners,
v.
DEPARTMENT OF STATE, ET AL.,
Respondents.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Sixth Circuit

__________________

BRIEF FOR AMICI CURIAE THE EAGLE
FORUM AND THE TENNESSEE EAGLE
FORUM IN SUPPORT OF PETITIONERS
__________________
JOANNE E. BREGMAN
Counsel of Record
6049 Robin Hill Road
Nashville, Tennessee 37205
615-589-9489
jebregman@gmail.com
Counsel for Amici Curiae
April 15, 2020
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . ii
INTEREST OF AMICI . . . . . . . . . . . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . . . . 2
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
I. Restoring a Constitutionally Defensible
Relationship Between the Federal Government
and the Tennessee Legislature Requires
Granting the Petition for Certiorari . . . . . . . . . . 4
A. The plain language of the Refugee Act of
1980 and its legislative history establish a
clear record of Congress’ intent to reimburse
the first three years of state Medicaid costs
for newly resettled refugees . . . . . . . . . . . . . . 6
B. Congress created the U.S. Office of Refugee
Resettlement and provided specific directions
to reimburse state Medicaid costs which were
not followed by the agency interpreting the
statute and applying its regulations. . . . . . . 10
C. Forcing state legislators to expend state
resources outside of the normal
appropriations process directly interferes
with their duties to the state and to their
constituents . . . . . . . . . . . . . . . . . . . . . . . . . . 14
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

ii
TABLE OF AUTHORITIES
CASES
Connecticut National Bank v. Germain,
503 U.S. 249 (1992). . . . . . . . . . . . . . . . . . . . . . . . 6
Coyle v. Smith,
221 U.S. 559 (1911). . . . . . . . . . . . . . . . . . . 3, 4, 14
Jennings v. Rodriguez,
138 S. Ct. 830 (2018). . . . . . . . . . . . . . . . . . . . . . 14
Nat’l Fed’n of Indep. Bus. v. Sebelius,
567 U.S. 519 (2012). . . . . . . . . . . . . . 2, 3, 5, 14, 15
New York v. U.S.,
505 U.S. 144 (1992). . . . . . . . . . . . . . . . . . . . . . . 14
Printz v. U.S.,
521 U.S. 898 (1997). . . . . . . . . . . . . . . . . . 4, 14, 16
Solid Waste Agency of Northern Cook Cty. v.
Army Corps of Engineers (SWANCC),
531 U.S. 159 (2001). . . . . . . . . . . . . 3, 5, 12, 13, 16
Toibb v. Radloff,
501 U.S. 157 (1991). . . . . . . . . . . . . . . . . . . . . . . . 7
STATUTES
8 U.S.C. § 1521(a). . . . . . . . . . . . . . . . . . . . . . . . . . . 10
8 U.S.C. § 1522(e)(1). . . . . . . . . . . . . . . . . . . 2, 6, 7, 10
8 U.S.C. § 1522(e)(4). . . . . . . . . . . . . . . . . . . 2, 6, 7, 10

iii
REGULATIONS
45 C.F.R. § 400.94(b) . . . . . . . . . . . . . . . . . . . . . . . 2, 7
45 C.F.R. § 400.94(c) . . . . . . . . . . . . . . . . . . . . . . . 2, 7
47 Fed. Reg. 10841 (March 12, 1982) . . . . . . . . 11, 12
59 Fed. Reg. 41417 (1994) . . . . . . . . . . . . . . . . . . 3, 12
OTHER AUTHORITIES
125 Cong. Rec. 35815 (Dec.13, 1979) . . . . . . . . . . . . . 9
Kenneth D. Basch, Federal Responsibilities for
Resettling Refugees, 24 Wash.U.J.Urb. &
Contemp. L. 151 (1983). . . . . . . . . . . . . . . . . . . 4, 5
Edward M. Kennedy, Refugee Act of 1980, 15
International Migration Rev., No.1/2, (SpringSummer 1981) . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
David Knudson, Federal Refugee Resettlement
Policy: Asserting the States’ Tenth Amendment
Defense, 8 Hastings Con.Law Quarterly 878
(1981). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Office of Refugee Resettlement, Report to Congress
(January 31, 1993) . . . . . . . . . . . . . . . . . . . . . . . 12
The Refugee Act of 1979,
H. Rpt. No. 96-608 (1979) . . . . . . . . . . . . . . . . . . . 8
The Refugee Act of 1979,
S. Rpt. No. 96-256 (1979) . . . . . . . . . . . . . . . 3, 7, 8
U.S. Gen. Accounting Office, GAO-HRD-91-51,
Refugee Resettlement: Federal Support to the
States Has Declined (1990). . . . . . . . . . . . . . . . . 12

1
INTEREST OF AMICI1
Eagle Forum is a national organization founded in
1972, by Mrs. Phyllis Schlafly. Its network of statebased chapters share the mission of mobilizing and
mentoring grassroots conservative activists to impact
public policy at all levels of government; from Congress
to state legislatures, to local commissions and boards.
Tennessee Eagle Forum was established as a state
chapter in the late 1970’s. Mrs. Bobbie Patray has led
the chapter as president since 1987. She has provided
thirty-three years of advocacy to members of the
Tennessee General Assembly and on-the-scene
mentoring to countless individuals and organizations
during this time.
Eagle Forum’s state chapters are well known to
their respective state legislatures. Amici’s very first
nationwide mobilization is credited with defeating the
proposed Equal Rights Amendment which was
accomplished by effectively pressuring state
legislatures to stop or rescind passage of the ERA.
Amici’s advocacy in state legislatures on a wide range
of issues has increased significantly since that first
victory. Amici’s advocacy continues to be grounded in
upholding constitutional principles including rights

1

Written notice of intent to file an amicus curiae brief in support
of Petitioners was provided to counsel of record for each party at
least 10 days prior to the filing deadline for amicus curiae briefs in
this case. Counsel of record for each party provided consent for the
filing of this amicus curiae brief. No person or entity other than
counsel for amici authored any part of this brief or contributed
money to fund the preparation or submission of this brief.

2
and protections for individual liberty. Amici’s activism,
particularly at the state level, often involves the
constitutional boundaries between state and federal
governments.
Tennessee Eagle Forum was the first state chapter
to question legislators about their authority to
appropriate state funds when they are being forced by
the federal government to spend some of that state
revenue to support a federal program in which the
state no longer participates. This is the issue which
forms the basis of Petitioners’ Writ for Certiorari. In
keeping with its work to educate and connect the public
to the legislative process, Tennessee Eagle Forum has
used its weekly legislative update to highlight the
efforts of the Tennessee General Assembly to address
this issue through the judicial process.
SUMMARY OF ARGUMENT
The Court in National Federation of Independent
Business v. Sebelius, 567 U.S. 519 (2012), exhorted
states to assert their sovereign status against the
federal government when necessary, “[t]he States are
separate and independent sovereigns. Sometimes they
have to act like it.” Id. at 579. This is precisely the
spirit of the action taken by the Tennessee General
Assembly.
When Congress proposed the Refugee Act, it
understood that they were creating a fiscal burden for
states because states would be legally required to
enroll Medicaid eligible refugees into the entitlement
program at the state’s expense. 8 U.S.C. §§ 1522(e)(1),
(4); 45 C.F.R. § 400.94(b)-(c). This is why the Act’s plain

3
language provides for reimbursing state Medicaid costs
for eligible refugees for three years. In addition, the
Act’s legislative history establishes a “clear indication”
of Congress’ intent to make reimbursement of state
costs a priority in administering the Act. The Refugee
Act of 1979, S. Rpt. No. 96-256 at 11 (1979); Solid
Waste Agency of Northern Cook Cty. v. Army Corps of
Engineers, 531 U.S. 159, 172 (2001).
The U.S. Department of Health and Human Services
(HHS) and the Office of Refuge Resettlement (ORR),
despite explicit directions from Congress and a
recognition that the Refugee Act of 1980 created a
fiscal burden for the states, eliminated all
reimbursement to states for refugee Medicaid costs,
thereby shifting to the states, costs that were supposed
to be the responsibility of the federal government. The
unconstitutional cost shifting, Nat’l Fed’n of Indep.
Bus. v. Sebelius, 567 U.S. at 577-78, was made even
more onerous when HHS/ORR promulgated a new
regulation which permitted states to withdraw from
the refugee program but remain liable for the cost that
was supposed to be covered by the federal government.
59 Fed. Reg. 41417, 4121 (1994).
Administration of the Refugee Act is in conflict with
Congress’ explicit directions for state reimbursement
and forces all state legislators in the Tennessee
General Assembly to violate their Constitutional duties
to appropriate state funds and balance the state
budget. Congress may not undermine a “necessary
attribute [of] an independent sovereign government”
Coyle v. Smith, 221 U.S. 559, 575 (1911), including the
power to “appropriate its own public funds,” when this

4
power has not been delegated to the federal
government. Id. at 565. To permit otherwise is a direct
affront to the framework of dual sovereignty set forth
in the Constitution. Printz v. U.S., 521 U.S. 898, 920
(1997).
Absent a grant of standing, Tennessee’s legislature
will be denied a venue to stop the federal government’s
interference in the execution of its exclusive power and
duties relative to the handling of state funds. The
Court has no power to control the budgetary challenge
facing Petitioners from the deadly and economically
devastating March tornadoes and COVID pandemic.
However, the “siphon[ing] of state funds - at any time
and in any amount” by the federal government, “to help
pay for a federal program from which Tennessee has
withdrawn,” is well within the Court’s discretion to
address. Petition for a Writ of Certiorari, Tennessee
General Assembly v. U.S. Department of State, No.191137 at 2 (March 13, 2020). Petitioners’ Writ of
Certiorari should be granted.
ARGUMENT
I. Restoring a Constitutionally Defensible
Relationship Between the Federal
Government and the Tennessee Legislature
Requires Granting the Petition for Certiorari
Long before the federal government reneged on its
promise to reimburse 100% of state Medicaid costs for
new refugees and instead, shifted the cost to states, it
was predicted that Congress’ Spending power would
put the Refugee Act on a collision course with the
Tenth Amendment. Kenneth D. Basch, Federal

5
Responsibilities for Resettling Refugees, 24
Wash.U.J.Urb. & Contemp. L. 151 (1983); David
Knudson, Federal Refugee Resettlement Policy:
Asserting the States’ Tenth Amendment Defense, 8
Hastings Con.Law Quarterly 878 (1981).
Congress’ plenary power to admit aliens, including
refugees, is undisputed. But “[o]nce an alien has
entered the country, however, this constitutional power
loses force” Basch, supra at 181, and Congress’
Spending power becomes essential to meeting the
objectives of the Act. Presumably, “... refugee
resettlement programs are exercises of Congress’
Spending power and are thus subject to the limits of
that power.” Id. at 182.
Congress may use its Spending power to encourage
or induce states to adopt federal policies, but it cannot
go so far as to try and compel states to use their limited
resources to fund federal programs. Nat’l Fed’n of
Indep. Bus. v. Sebelius, 567 U.S. 519, 577-78 (2012).
Once the promised reimbursement for Medicaid
expenditures was stopped and the costs shifted to the
state, the “federal-state balance” was breached.
SWANCC v. Army Corps of Engineers, 531 U.S. 159,173
(2001). Even after Tennessee officially withdrew from
the refugee resettlement program the federally forced
state expenditures didn’t stop and any remnant of a
Constitutionally defensible relationship between the
federal government and the Tennessee General
Assembly was extinguished. In Sebelius, the Court
exhorted states to assert their sovereign status against
the federal government when necessary. Id. at 579.
Petitioners have done precisely what the Court

6
advised. Heeding the Court will prove meaningless
unless Petitioner’s Writ of Certiorari is granted.
To date, the federal program costs continue to
bypass the legislature’s appropriations process and be
imposed on the state’s budget. All state legislators
continue to be forced to violate their Constitutional
duties to appropriate state funds and balance the
state’s budget, and as such, suffer an institutional
injury. Petition for a Writ of Certiorari, Tennessee
General Assembly v. U.S. Department of State, No.191137 at 16-17 (March 13, 2020).
A. The plain language of the Refugee Act of
1980 and its legislative history establish a
clear record of Congress’ intent to
reimburse the first three years of state
Medicaid costs for newly resettled
refugees.
The Refugee Act of 1980 states unambiguously that
states would be reimbursed 100% of their cost of
Medicaid for three years for newly resettled refugees.
8 U.S.C. §§ 1522(e)(1), (4). “We have stated time and
again that courts must presume that a legislature says
in a statute what it means and means in a statute what
it says there. When the words of a statute are
unambiguous, then, this first canon is also the last:
‘judicial inquiry is complete.’” Connecticut National
Bank v. Germain, 503 U.S. 249, 253-254 (1992).
If the Court is not persuaded by the explicit
language of the statute, any question regarding state
cost reimbursement is confirmed by the Act’s
legislative record. “First, this Court has repeated with

7
some frequency: ‘Where, as here, the resolution of a
question of federal law turns on a statute and the
intention of Congress, we look first to the statutory
language and then to the legislative history if the
statutory language is unclear.’” Toibb v. Radloff, 501
U.S. 157, 162 (1991).
The Refugee Act’s legislative history is emphatic
regarding Congress’ intent to reimburse state Medicaid
costs for newly resettled refugees. Members of
Congress well understood that bringing refugees to the
U.S. was as much about humanitarian objectives as it
was about money and real estate; that is, who would
pay for what and where refugees would be placed once
they arrived. Congress had to take state financial
concerns seriously and commit to reimbursing states as
a priority because the Act created a fiscal catch-22 for
states regarding entitlement programs like Medicaid.
If states agreed to resettle refugees, they would have
no choice but to enroll eligible refugees into statefunded Medicaid programs which refugees access
immediately upon arrival. 8 U.S.C. § 1522(e)(1), (4); 45
C.F.R. § 400.94(b)-(c).
The Senate proposed two years of refugee cash and
medical assistance attached to state cash and Medicaid
entitlement programs “… provided through a 100
percent reimbursement to the States for all refugees
who do not qualify for the regular AFDC-Medicaid
programs. For those who do qualify for the regular
programs, the funds cover the State’s portion of
payment for these services.” The Refugee Act of 1979,
S. Rpt. No. 96-256 at 11 (1979).

8
One Senator predicted that the new program could,
like other federal programs, become fiscally
detrimental for the states if the promise wasn’t kept.
This is precisely where Tennessee finds itself today:
The final concern I have has to do with the issue
of the withdrawal of the Federal Government
from the system after 2 years and the States’
bearing the full financial burden. We hear that
in our travels at the State level. People of the
States are very frustrated at the Federal
Government beginning a program, whatever it
may be, with the State in full participation and
then suddenly withdrawing and saying, ‘Here
you are.’ What response have you had from the
State governments, Governors, mayors and
municipality officials with regard to that issue?
Id. at 12.
The 1979 House Report was specific that the
“underlying purpose” of federal medical and cash
assistance for refugees was to “… insure that state and
local governments are not adversely impacted by
Federal decisions to admit refugees.” The Refugee Act
of 1979, H. Rpt. No. 96-608 at 180 (1979).
To that end, bill co-sponsor Representative
Elizabeth Holtzman, pushed to reimburse 4 full years
of state cost as opposed to the Senate’s proposed twoyear limit:
In my judgment, it is essential that we continue
to receive the full support of State governments
for our refugee programs; I believe that we
would jeopardize that support and cooperation if

9
we were to transfer the resettlement burden to
the States after the refugees have been in the
country for only 2 short years. While most
refugees are quickly integrated into American
society, some adjustment problems do occur in
the first few years and I do not believe we should
require States to respond to these residual
problems with their own resources. In short, full
reimbursement for a 4-year period represents, in
the committee’s judgment, a proper allocation of
Federal and State responsibilities for the care
and resettlement of refugees.
125 Cong. Rec. 35815 (Dec.13, 1979)
A conference committee reconciled the issue of
federal assistance settling on three years of federal
support. According to the Act’s leading sponsor Senator
Ted Kennedy, the duration of federal support was “the
widest difference between the Senate and House
versions.” In his paper tracing the legislative history of
the 1980 Act, Kennedy confirms that reimbursement to
states was a key consideration driving the newly
created program:
The widest difference between the Senate and
House versions of the Act was on domestic
resettlement assistance. Because the admission
of refugees is a federal decision and lies outside
normal immigration procedures, the federal
government has a clear responsibility to assist
communities in resettling refugees and helping
them to become self-supporting. The basic
issues here [in conference committee] were the
length of time of federal responsibility and the

10
method of its administration. State and local
agencies were insistent that federal assistance
must continue long enough to assure that local
citizens will not be taxed for programs they did
not initiate and for which they were not
responsible.
Edward M. Kennedy, Refugee Act of 1980, 15
International Migration Rev., No.1/2, (Spring-Summer
1981), 141, 151.
Buffering the financial impact on states was critical
to gaining state cooperation which is why making
reimbursement to the states for state entitlement
program expenditures was an explicit priority in
administering the Act.
B. Congress created the U.S. Office of Refugee
Resettlement and provided specific
directions to reimburse state Medicaid
costs which were not followed by the
agency interpreting the statute and
applying its regulations.
The Refugee Act created the U.S. Office of Refugee
Resettlement (ORR), a new agency with a Director
position within the U.S. Department of Health and
Human Services (HHS). 8 U.S.C. § 1521(a). Congress
instructed ORR’s Director to reimburse states 100% for
three years of their Medicaid cost for newly arriving
refugees. 8 U.S.C. §§ 1522(e)(1), (4). Initially HHS/ORR
followed the directions laid out by Congress.
To serve the priority to reimburse states when
Congress reduced its appropriations for refugee
assistance, HHS/ORR began reducing the federal

11
subsidy only for refugees ineligible for entitlement
programs as a means to “… reduce total refugee
welfare costs while continuing to relieve States of
refugee cash and medical assistance costs during a
refugee’s first 36 months in this country.” 47 Fed. Reg.
10841, 10842 (March 12, 1982). Without question
HHS/ORR understood that a fiscal catch-22 for states
was built into the Refugee Act and that it was
“Congress’ intent that States and local governments
‘will not be unduly burdened by Federal decisions to
admit refugees.’” Id.
While HHS/ORR sharply curtailed federal
assistance to states for refugees who were not eligible
for Medicaid – i.e. “costs which the States are under no
legal obligation to incur”, it affirmed its obligation to
follow directions from Congress to cover costs for
refugees who were in the Medicaid program since these
are costs the state is legally obligated to cover but
which the federal government promised to pay:
… the Department’s specific policy decisions
reflected in these regulations were very much
influenced by the recognition of continued
responsibility to the States. It is for this reason
that the rules continue to provide for 100%
reimbursement for State cash and medical
assistance costs during a full 36 month period
with respect to refugees and entrants who
qualify for benefits under jointly administered
Federal/State programs such as AFDC and
Medicaid ….
Thus, the rules continue to reflect a Federal
willingness to accept responsibility for costs of

12
assistance actually incurred by States on behalf
of refugees during their first three years in this
country. The Federal reimbursement to States
which is discontinued under these rules after an
18 month period only relates to assistance
costs which the States are under no legal
obligation to incur in the absence of coverage
under the federally funded RCA [refugee cash
assistance] and RMA [refugee medical
assistance] programs ….
Thus, it does not transfer costs to the States or
localities.
Id. at 10844 (emphasis added).
In a drastic repudiation of Congress’ commitment to
states, however, HHS/ORR eliminated all
reimbursement to states for Medicaid eligible refugees
and as documented in federal reports, shifted these
costs to the states.2 Subsequent promulgation of the
withdrawal rule compounded the cost shift by enabling
it to continue even after a state withdrew from the
program. 59 Fed.Reg. 41417, 4121 (1994). Neither the
cost shift nor the withdrawal rule are within the scope
of the regulatory authority intended by the enabling
legislation. SWANCC v. Army Corps of Engineers, 531
U.S. 159,172-73 (2001).

2

U.S. Gen. Accounting Office, GAO-HRD-91-51, Refugee
Resettlement: Federal Support to the States Has Declined (1990);
Office of Refugee Resettlement, Report to Congress at 20 (January
31, 1993).

13
In SWANCC the Court rejected the Army Corp of
Engineers’ use of their migratory bird rule to broaden
its regulatory authority over isolated waters under the
Clean Water Act. The Court held that the Corps’
application of the bird rule for this purpose, was not
supported by the statute’s language, its legislative
history (which respondent “admit[ted]… is somewhat
ambiguous”), Id. at 168 n.3, or a “clear indication” of
Congress’ intent. Id. at 172.
The Court did not reach the question of whether the
Commerce Clause could fill the jurisdictional gap for
the Corps, but intimated that the Corps would have
fared no better because under a Commerce Clause
analysis the “significant constitutional questions raised
by [the Corps’] application of their regulations”
intruded on areas of traditional state authority. Id.
Where an administrative interpretation of a
statute invokes the outer limits of Congress’
power, we expect a clear indication that
Congress intended that result. This requirement
stems from our prudential desire not to
needlessly reach constitutional issues and our
assumption that Congress does not casually
authorize administrative agencies to interpret a
statute to push the limit of congressional
authority. This concern is heightened where the
administrative interpretation alters the federalstate framework by permitting federal
encroachment upon a traditional state power.
Id. at 172-173 (internal citations omitted).

14
The statutory language of the Refugee Act and the
legislative history are consistent and establish a clear
record on which the Court can rely as to the issue of
reimbursing the state Medicaid cost. This more than
reasonable interpretation of the Refugee Act offers a
way for the Court to “cure” the problem caused by
HHS/ORR’s actions which infringe on Petitioners’
power to “appropriate its own public funds,” Coyle v.
Smith, 221 U.S. 559, 565 (1911), without having to
wade into the constitutional status of the Refugee Act
itself. See, Jennings v. Rodriguez, 138 S. Ct. 830, 842
(2018).
C. Forcing state legislators to expend state
resources outside of the normal
appropriations process directly interferes
with their duties to the state and to their
constituents.
Congress may not commandeer a state’s legislative
process, New York v. U.S., 505 U.S. 144, 161 (1992) or
impair “necessary attributes as an independent
sovereign government” which have not been delegated
to the federal government, Coyle v. Smith, 221 U.S. at
575, including the power to “appropriate its own public
funds” for a purpose within the explicit authority of a
state’s legislature Id. at 565. It may not force a state to
administer a federal program, Printz v. U.S., 521 U.S.
898, 930 (1997), or fund a federal program, Nat’l Fed’n
of Indep. Bus. v. Sebelius, 567 U.S. 519, 577-78.
States are supposed to be able to reject an offer of
federal funds and the conditions attached to the money.
But the HHS/ORR withdrawal rule promulgated after
all promised reimbursement to the states was

15
eliminated, enables an end-run around what Congress
intended in the Refugee Act. “Permitting the Federal
Government to force the States to implement a federal
program would threaten the political accountability key
to our federal system …. Spending Clause programs do
not pose this danger when a State has a legitimate
choice whether to accept the federal conditions in
exchange for federal funds.” Id. at 578.
That “legitimate choice” is not available to the
Tennessee General Assembly. Whichever option
Tennessee chooses—administer the federal refugee
program and absorb the shifted federal costs, withdraw
and continue to be forced to absorb the shifted federal
costs, or refuse to enroll Medicaid eligible refugees and
jeopardize 20% of the state budget, the rules attached
to the resettlement program and Medicaid create the
“compulsion” rejected by Sebelius. Id. at 577. If the
federal government cannot compel a state to fund
federal programs, then a state should not be forced to
divert funding from essential and traditional state
government services in order to operationalize a federal
program from which the state has withdrawn.
Tennessee’s legislature is constitutionally bound to
provide for the public’s health, safety and general
welfare. These Tenth Amendment powers are
impermissibly threatened by federally coerced
spending for the refugee resettlement program,
especially at a time when the needs of Tennessee’s
citizens are dire.
This false choice violates a core principle of dual
sovereignty, “a legal system unprecedented in form and
design, establishing two orders of government, each

16
with its own direct relationship, its own privity, its own
set of mutual rights and obligations to the people who
sustain it and are governed by it.” Printz v. U.S., 521
U.S. at 920. The limits on Congress’ Spending power
must apply equally to Petitioners’ case if the
Constitutional federal-state balance is to be restored.
SWANCC v. Army Corps of Engineers, 531 U.S at 173.
Coincident with the COVID-19 pandemic, a series
of seven deadly tornadoes ripped through 100 miles of
Tennessee counties resulting in 25 deaths, hundreds of
homes and businesses and schools destroyed, and the
Governor declaring a state of emergency. On the heels
of this extreme tragedy, another state of emergency
was declared due to the climbing numbers of
coronavirus victims. All of this has worsened the
situation for Tennessee’s fifteen distressed counties
which fall within the top 10 percent of economically
distressed counties in the U.S.
Prior to adjourning prematurely to help contain the
spread of COVID-19, the General Assembly passed a
bare-bones, mission critical budget which lowered the
growth rate of the current fiscal year and projected a
decreased growth rate for the upcoming fiscal year.
Skyrocketing unemployment claims (over 200,000 at
the beginning of April), and other necessary measures
to address the COVID pandemic on top of the tornado
crisis, have brought unanticipated state expenses and
state revenue shortfalls. The cost and timeline for the
State’s recovery remains undetermined. It is also
unknown how many more Tennesseans may become
Medicaid-eligible as a result of these twin crises.

17
The federal refugee program is only temporarily
suspended. Once restarted, it will again impose
burdensome costs on the state budget from refugee
entrants who rely heavily on the Medicaid entitlement
program. The challenge for Tennessee’s General
Assembly to effectively meet the fiscal, health and
safety needs across the State will impact the current
and next year’s budget which begins on July 1, 2020.
The legislature’s task of managing these budgets is
compounded by the different start dates of the state
and federal fiscal years with the federal government
being able to “siphon state funds—at any time and in
any amount—to help pay for a federal program from
which Tennessee has withdrawn.” Petition for a Writ of
Certiorari, Tennessee General Assembly v. U.S.
Department of State, No.19-1137 at 2 (March 13, 2020).
There is no room in the Constitution’s framework to
permit the federal government or its agencies to take
state funds without the express consent of the state’s
appropriating body. The Court confirmed this limit
when it held that a federal action which interferes with
the state’s control over its own budget is not
permissible. It is incumbent on this Court to protect
the legitimacy of dual sovereignty under which
Congress’ Spending power is exercised.

18
CONCLUSION
For the foregoing reasons, the petition for a writ of
certiorari should be granted.
Respectfully submitted,
JOANNE E. BREGMAN
Counsel of Record
6049 Robin Hill Road
Nashville, Tennessee 37205
615-589-9489
jebregman@gmail.com
Counsel for Amici Curiae

